No.

 

 

IN THE

Supreme Court of the United States

MarK ANTHONY POOLE,

Petitioner,
v.

STATE OF FLORIDA.

On Petition for a Writ of Certiorari
to the Supreme Court of Florida

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
9,027 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 28, 2020.

Colin Casey then

Wilson-Epes Printing Co., Inc.
